UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6902
OMARI H. PATTON,
Plaintiff - Appellant,
v.
CRYSTAL KIMBLE,
Defendant - Appellee.

Appeal from the United States District Court for the Northern District of West Virginia, at
Elltins. John Preston Bailey, District Judge. (2:16-cv-00010-JPB-MJA)
Submitted: May 11,2021

Decided: May 13,2021

Before KING, KEENAN, and WYNN, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Omari H. Patton, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit

appenpwA

PER CURIAM:
Omari H. Patton appeals the district court’s order, entered upon remand from this
court, see Patton v. Kimble, 717 F. App’x 271,272 (4th Cir. 2018) (No. 17-7032), granting
Federal Corrections Officer Crystal Kimble’s motion for summary judgment in Patton’s
civil rights action filed pursuant to Bivens v. Six Unknown Named Agents ofFed. Bureau
ofNarcotics, 403 U.S. 388 (1971). The sole issue remaining after we ruled in Patton’s
prior appeal, see Patton, 717 F. App’x at 272, was Patton’s claim that Kimble violated the
First Amendment by retaliating against Patton for filing administrative grievances. On
remand, the district court analyzed the issue pursuant to Ziglar v. Abassi, 137 S. Ct. 1843
(2017), and ruled that the implied-damages remedy recognized in Bivens does not extend
to First Amendment retaliation claims such as the one Patton advanced.
We recently addressed this issue in Earle v. Shreves* holding that the Bivens
remedy may not ;‘be extended to include a federal inmate’s claim that prison officials
violated his First Amendment rights by retaliating against him for filing grievances.” 990
F.3d 774, 776 (4th Cir. 2021). Earle thus confirms the propriety of the district court’s
dispositive ruling. Accordingly, we affirm the district court’s order granting summary
judgment to Kimble. Patton v. Kimble, No. 2:16-cv-00010-JPB-MJA (N.D.W. Va. June
17,2019).

•

»

y

We held this appeal in abeyance pending the disposition in Earle.
2

We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

3

'/

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 1 of 16 PagelD#:555

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
ELKINS
OMARI H. PATTON,
Plaintiff,

v.

Civil Action No. 2:16-CV-10
(BAILEY)

CRYSTAL KIMBLE
Defendant.

ORDER GRANTING DEFENDANTS MOTION FOR SUMMARY JUDGMENT
Currently pending before this Court is the defendant’s Motion for Summary
Judgment [Doc. 121], filed May 15,2019. Having been fully briefed, this matter is now ripe 4
for decision. For the reasons set forth below, this Court will grant the Motion.

BACKGROUND
Plaintiff Omari Patton is currently serving a federal drug trafficking sentence. He is
currently incarcerated in Ohio, in a state correctional center. Patton filed a lawsuit pursuant
to Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388
(1971), against defendant Crystal Kimble, a Federal Bureau of Prisons (“BOP”) correctional
officer. Patton alleges that defendant searched his prison cell and confiscated legal
documents. Afterwards, Patton alleges he verbally complained to the lieutenant that
defendant took his legal binder. Patton claims that after defendant found out Patton told
defendant’s superior, defendant retaliated against him by searching his cell again. Patton
alleges this second search resulted in the confiscation of his sentencing transcript and part

1

APPENDS b

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 2 of 16 PagelD#:556

of his trial transcripts. The defendant claims that the only things confiscated from Patton's
cell were nude photographs, not legal documents.
Patton claimed that these actions violated his First, Fourth, Sixth, and Fourteenth
Amendment rights. This Court previously dismissed Patton’s entire Complaint. On appeal,
the Fourth Circuit remanded this case back to this Court with the narrow instruction to
review Patton’s First Amendment argument in light of a more recent case, Booker v.
South Carolina Dep't of Corrections, 855 F.3d 533 (4th Cir. 2017).
STANDARD OF REVIEW
Federal Rule of Civil Procedure 56 provides that summary judgment is appropriate
"if the pleadings, depositions, answers to interrogatories, and admissions on file, together
with the affidavits, if any, show that there is no genuine issue as to any material fact and
that the moving party is entitled to a judgment as a matter of law." The party seeking
summary judgment bears the initial burden of showing the absence of any genuine issues
of material fact. See Celotex Corp. v. Catrett, 477 U.S. 317,322-23 (1986). ‘The burden
then shifts to the nonmoving party to come forward with facts sufficient to create a triable
issue of fact." Temkln v. Frederick County Comm'rs, 945 F.2d 716, 718 (4th Cir. 1991)
cert, denied, 502 U.S. 1095 (1992) (citing Anderson v. Liberty Lobby, Inc., All U.S. 242,
247-48 (1986)).
However, as the United States Supreme Court noted in Anderson, “Rule 56(e) itself
provides that a party opposing a properly supported motion for summary judgment may not
rest upon the mere allegations or denials of his pleading, but must set forth specific facts
showing that there is a genuine issue for trial." Id. at 256. “The inquiry performed is the

2

'V
S-

J

♦

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 3 of 16 PagelD #: 557

threshold Inquiry of determining whether there is the need for a trial—whether, in other
words, there are any genuine factual issues that properly can be resolved only by a finder
of fact because they may reasonably be resolved in favor of either party.” id. at 250; see
also Charbonnages de France v. Smith, 597 F.2d 406, 414 (4th Cir. 1979) (Summary
judgment "should be granted only in those cases where it is perfectly clear that no issue
of fact is involved and inquiry into the facts is not desirable to clarify the application of the
law." (citing Stevens v. Howard D. Johnson Co., 181 F.2d 390, 394 (4th Cir. 1950))).
In reviewing the supported underlying facts, all inferences must be viewed in the
light most favorable to the party opposing the motion. See Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). Additionally, the party opposing
summary judgment “must do more than simply show that there is some metaphysical doubt
as to the material facts." Id. at 586. That is, once the movant has met its burden to show
absence of material fact, the party opposing summary judgment must then come forward
with affidavits or other evidence demonstrating there is indeed a genuine issue for trial.
Fed. R. Civ. P. 56(c); Celotex Corp., 477 U.S. at 323-25; Anderson, 477 U.S. at 248.
“If the evidence is merely colorable, or is not significantly probative, summary judgment
may be granted." Anderson, 477 U.S. at 249 (citations omitted).
DISCUSSION
The two main issues for discussion of the defendant’s motion for summaryjudgment
are (1) whether the plaintiffs Bivens claim is viable under recent Supreme Court case law;
and (2) whetherthe defendant is entitled to qualified immunity from this action. Defendant
argues that plaintiff cannot sustain a Bivens action under the Supreme Court’s decision

3

•

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 4 of 16 PagelD #: 558

in Ziglar v. Abbasi, 137 S.Ct. 1843 (2017). Patton argues that Abbasi does not apply
here because neither this Court nor the Fourth Circuit previously acknowledged this case
even though Abbasi was decided before this Court's dismissal of the case and the Fourth
Circuit’s decision to remand.1 Defendant also argues that she is entitled to qualified
immunity because Patton’s First Amendment right was not “clearly established" at the time
of the alleged misconduct.
I. Bivens
Even though Congress passed 42 U.S.C. § 1983, which allows money damages if
a state official violates constitutional rights, there never has been an analogous statute for
federal officials. In light of this, the Supreme Court, in Bivens v. Six Unknown Fed.
Narcotics Agents, 403 U.S. 388 (1971), ruled that even with no statutory authorization
there could still be an implied cause of action for damages for people injured by federal
officials violating constitutional rights. Bivens suits aim to deter unconstitutional actions
by targeting the personal assets of individual federal officials. See Carison v. Green, 446
U.S. 14,21 (1980). Liability in a Bivens case is "personal, based upon each defendant's
own constitutional violations." Trutock v. Freeh, 275 F.3d 391, 402 (4th Cir. 2001).
Vicarious liability or respondeat superior is not available for a Bivens claim, "each
Government official, his or her title notwithstanding, is only liable for his or her own
misconduct." Ashcroft v. iqbai, 556 U.S. 662, 677 (2009).

i

Patton repeatedly argues that since defendant has already moved for summary
judgment before that she should not be allowed “a second bite of the apple.” However, this
case was remanded from the Fourth Circuit, and parties are allowed to move for summary
judgment on remand. This is not a second bite of the apple; this is an entirely new apple.
4

-

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 5 of 16 PagelD #: 559

Recently, the Supreme Court has reined in the availability of damages remedies in
alleged constitutional violations by federal actors. In Zigiarv. Abbasi, the Supreme Court
marked a substantial shift in how courts are to interpret alleged unconstitutional acts by
federal actors when there is no statute permitting a damages remedy. 137 S.Ct. 1843
(2017). The Court noted that it has only recognized Bivens remedies three times: (1) in
Bivens, damages were awarded for violations of the Fourth Amendment’s prohibition
against unreasonable searches and seizures; (2) in Davis v. Passman, 442 U.S. 228
(1979), the Fifth Amendment Due Process Clause authorized a damages remedy when
an employee sued a Congressman for firing her for being a woman; and (3) in Carison,
the Eighth Amendment Cruel and Unusual Punishment Clause provided a damages
remedy for failure to provide adequate medical treatment for the fatal failure to treat a
prisoner's asthma, id. at 1854-55. The Court’s explicit message in Abbasi is "clear that
expanding the Bivens remedy is now a ‘disfavored’ judicial activity." id. at 1857 (quoting
iqbai, 556 U.S. at 675).
After Abbasi, there is now a two-step test when deciding whether a cognizable
Bivens remedy exists for alleged official misconduct. First, a court must determine
whether the claim presents a "new” Bivens context, id. at 1859. If it does, the court must
assess whether any "special factors counsel[ ] hesitation" in recognizing a new remedy "in
the absence of affirmative action by Congress." id. at 1857, 1859,
In order to determine if a case presents a new Bivens context, courts must
determine whether the claim is "different in a meaningful way" from the prior Bivens cases
decided by the Supreme Court, id. at 1859 ("If the case is different in a meaningful way

5

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 6 of 16 PagelD #: 560

from previous Bivens cases decided by this Court, then the context is new." (emphasis
added)). So if the Bivens claim meaningfully differs from “a claim against FBI agents for
handcuffing a man in his own home without a warrant; a claim against a Congressman for
firing his female secretary; [or] a claim against prison officials for failure to treat an inmate's
asthma” it is a new context.2 id, at 1860. “£E]ven a modest extension is still an extension."
id. at 1864. Examples of meaningful differences that constitute a “new context" include:
the rank of the officers involved; the constitutional right at issue; the
generality or specificity of the official action; the extent of judicial guidance
as to how an officer should respond to the problem or emergency to be
confronted; the statutory or other legal mandate under which the officer was
operating; the risk of disruptive intrusion by the Judiciary into the functioning
of other branches; or the presence of potential special factors that previous
Bivens cases did not consider.
Id. at 1859-60.
In considering whether any special factors counsel hesitation in authorizing a
damages remedy, this inquiry concentrates on “whetherthe Judiciary is well suited, absent
congressional action or instruction, to consider and weigh the costs and benefits of
allowing a damages action to proceed." Id. at 1858. When asserting an implied cause of

3
It should be noted that the Fourth Circuit has alluded to the fact that the “Supreme
Court may have recognized a fourth Bivens context in Farmer v. Brennan, which
sustained a prisoner's Eighth Amendment claim for damages against federal prison
officials for failure to protect." Attkisson v. Holder, 2019 WL 2147243, at *11 n. 6
(4th Cir. May 17, 2019), as amended (June 10, 2019) (emphasis added). The Court did
not definitively decide this because the case was not similar to Farmer and it was
unnecessary to its analysis.
6

*

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 7 of 16 PagelD #: 561

action under the Constitution, such as a Bivens claim, a separation-of-powers analysis is
central to the inquiry. See id. at 1857. The question becomes who should decide whether
to provide a damages remedy—Congress orthe courts? Id. And "[t]he answer most often
will be Congress." id. This is because it "is not necessarily a judicial function to establish
whole categories of cases in which federal officers must defend against personal liability
claims." Id. at 1858. Further, the Abbasi decision guides the lower courts that if claimants
have alternative remedial structures, "that alone may limit the power of the Judiciary to infer
a new Bivens cause of action." Id. However, the Supreme Court left open the possibility
that “if equitable remedies prove insufficient, a damages remedy might be necessary to
redress past harm and deter future violations." Id. at 1858. "In sum, if there are sound
reasons to think Congress might doubt the efficacy or necessity of a damages
remedy[t]... the courts must refrain from creating the remedy in order to respect the role
of Congress." Id.
As an initial matter, Patton argues that Abbasi has already been determined not to
apply here because the Magistrate Judge’s Report and Recommendation (“R&R")
[Doc. 65], this Court's previous Order Adopting the R&R [Doc. 68], nor the Fourth Circuit’s
opinion remanding this case [Doc. 85] mentioned Abbasi. Patton is correct that all of
these were filed after Abbasi was decided. However, the R&R and the Order Adopting the
R&R relied on Daye v. Rubenstein, 417 F.App'x 317, 319 (4th Cir. 2011) (per curiam)
(unpublished), which explicitly held that verbal complaints were not constitutionally
protected. Because of Daye, there was no need for the Court to engage in an in-depth
Bivens/Abbasi analysis because there can be no relief under Bivens if a constitutional

7

‘

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 8 of 16 PagelD #: 562

right was not violated. The Fourth Circuit opinion did not address Abbasi either because
a more recent case, Booker v. South Carolina Dep’t of Corrections, 855 F.3d 533
(4th Cir. 2017), fatally undermined the reasoning in Daye. Therefore, the Fourth Circuit
was tasked with simply remanding this case back to the undersigned in order to consider
how this change in case law affected Patton’s case. There was no need to address
Abbasi until now.3
Consideration of the first prong of Abbasi analysis—whether the claim is a “new"
context—clearly shows that Patton’s First Amendment retaliation claim is a "new” context
under Abbasi because none of the three cases listed in Abbasi involved the
First Amendment. Accordingly, this Court can move on to the special factors analysis. The
defendant argues there are alternative remedies and that there are other special factors
that counsel hesitation of implementing implied damages in this case. In his response,
Patton did not offer any rebuttal arguments to defendant’s points on the special factors
issue.
First, this Court will determine if there are any alternative remedial structures in
place that may protect Patton's interest that may counsel hesitation for Judicial
involvement. Abbasi shows that alternatives may restrict the Judiciary’s need to create
a new damages remedy. See id. at 1865 (“The presence of alternative means of relief the
existence of alternative remedies usually precludes a court from authorizing a Bivens
action."). The defendant argues that Patton does have an alternative remedial structure

3
Regardless of any reason that the courts on previous occasion did not address
Abbasi, it would be nonsensical to ignore Abbasi now just because we ignored it before.
Abbasi applies to this case.
8

•

Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 9 of 16 PagelD #: 563

that should preclude the authorization of a Bivens remedy: the BOP grievance procedures.
The Prison Litigation Reform Act (“PLRA) created an administrative process that '‘allow[s]
an inmate to seek formal review of an issue relating to any aspect of his/her own
confinement." 28 C.F.R. § 542.10 (emphasis added). If an inmate is dissatisfied with a
response to the inmate’s concerns, there are several levels of review in which the inmate
can appeal any responses or rulings, including levels of review outside of his correctional
facility. 28 C.F.R. § 542.13-542.15. Forthese reasons, and because Patton has not even
attempted to address and rebut this grievance process argument, this Court finds, as many
other courts have found, that the BOP grievance process constitutes an alternative
remedial structure. See, e.g., Vega v. United States, 881 F.3d 1146,1154 (9th Cir. 2018)
('Vega had a remedy ‘to seek formal review of an issue relating to any aspect of
his ... own confinement’ under the Administrative Remedy Program.”); Goree v. Serio,
735 F.App’x 894,895 (7th Cir. 2018) (finding an alternative remedial structure because the
prisoner "had available to him, and indeed pursued, administrative remedies through the
Federal Bureau of Prisons to seek relief based on the same conduct underlying this suit”);
Johnson v. Johnson, 2018 WL 4374231, at *10 (S.D. W.Va. June 5, 2018), report and
recommendation adopted, 2018 WL 3629822 (S.D. W.Va. July 31, 2018) (finding the
inmate had alternative remedies available to address his First Amendment retaliation claim
via the BOP's administrative remedy process). Patton participated in the grievance
process and exhausted all steps, and he is dissatisfied with the result. However, the ability
to file complaints within the BOP administrative process for the same exact claims as his
instant Bivens claim is proof that the process is an alternative remedial structure.

9

* Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 10 of 16 PagelD#:564

In addition to the alternative remedies argument, the defendant argues that there
are other special factors that counsel hesitation in extending a Bivens remedy in this case.
Defendant argues that (1) separation-of-powers cautions against the courts encroaching
on the BOP’s broad discretion to manage federal prisons; (2) Congress has never
authorized a standalone damages cause of action against federal prison officials; and
(3) authorizing an implied damages remedy against federal prison officials can have
significant financial and logistical costs because of the complexity and size of the BOP.
The defendant’s separation-of-powers argument and the financial and logistical
costs argument can be analyzed together. The separation-of-powers argument centers
around the need for the BOP, an Executive Branch agency, to have broad discretion in
order to faithfully do its job. And the costs argument focuses on the burden that will be
placed on the BOP and its employees if they have to worry about being personally liable
while doing their job. In short, because of the size of the BOP and complexities of its
purpose, any meddling by the Judiciary can cause significant burdens on the BOP.
The Supreme Court in Abbasi and in previous cases have addressed similar
arguments as these and has generally held that these matters should be left to the BOP
or Congress, not the courts. See, e.g., Be// v. Wolfish, 441 U.S. 520,548 (1979) (ujT]he
operation of our correctional facilities is peculiarly the province of the Legislative and
Executive Branches of our Government, not the Judicial."); Jones v. N. Carolina
Prisoners* Labor Union, Inc., 433 U.S. 119,137 (1977) ("[Njeeded reforms in the area
of prison administration must come, not from the federal courts, but from those with the
most expertise in this field prison administrators themselves.”).

10

The Abbasi Court

• Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 11 of 16 PagelD#:565

acknowledged that a court’s “decision to recognize a damages remedy requires an
assessment of its impact on governmental operations systemwide.” Abbasi, 137 S.Ct. at
1858. The Court focused on the burden on the federal government employees who are
sued in their personal capacity and the costs and consequences to the government or
agency itself. See id. The Court further stated that the impact on government operations
systemwide and burden on individuals and the costs to the government itself "may make
it less probable that Congress would want the Judiciary to entertain a damages suit in a
given case.” id. .
If officers can be held personally liable for actions they take as part of their duties,
then there is a possibility that officers may hesitate or refrain from taking necessary action
to ensure safety within a prison. See Abbasi, 137 S.Ct. at 1863 (“If Bivens liability were
to be imposed, high officers who face personal liability for damages might refrain from
taking urgent and lawful action in a time of crisis."). The main goals of prison officials
should be to ensure safety and to prevent escape. Any hesitation in acting could greatly
impede these goals and result in physical harm (or worse) to inmates and staff. How a
correctional officer acts should be determined by the BOP, the Executive Branch, and
Congress. These bodies are more inclined to deal with prisoner allegations of misconduct
because “[rjunning a prison is an inordinately difficult undertaking that requires expertise,
planning, and the commitment of resources, all of which are peculiarly within the province
of the legislative and executive branches of government." Turner v. Safley, 482 U.S. 78,
84-85 (1987); see also Bistrian v. Levi, 912 F.3d 79, 95 (3d Cir. 2018) ("Ruling on
administrative detention policy matters would unduly encroach on the executive’s

11

• Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 12 of 16 PagelD#:566

domain."). Judicial intervention in how or when a BOP official is supposed to search an
inmate’s cell is an unnecessary and defective way of operating federal prisons.
Addressing the financial costs that come from extension of Bivens, it is obvious that
more litigation entails more money. Increased litigation would result in more federal
government money being used to defend federal officials, as well as a financial burden on
the individual employees. Abbasi forces lower courts to consider the financial costs. See
Abbasi, 137 S.Ct. at 1858. However, courts should be cautious in weighing the financial
costs too heavily because potential violations of constitutional rights should not have a
price tag on them. The financial costs are considered, but it is less significant in the
special factors analysis than the logistical costs and separation-of-powers issues.
Defendant also argues that since Congress has never authorized a standalone
damages cause of action against federal prison officials and that should counsel hesitation
in the courts authorizing damages. Furthering this argument is the fact that Congress has
passed lots of legislation regarding federal prisoners, but never once statutorily allowed for
damages in a context like this the instant case. The defendant cites to the PLRA, The Civil
Rights of Institutionalized Persons Act, 42 U.S.C. § 1997, and the First Step Act of 2018,
Pub. L. No. 115-391, 132 Stat. 5194. She also cites to the many statutes that give the
BOP discretion on howto manage the BOP and limitations on how an inmate may sue a
prison official. See, e.g., 18 U.S.C. § 3621(b) (giving BOP discretion on where to house
prisoners); 18 U.S.C. § 4042(a) (delegating the "charge of the management and regulation
of all Federal penal and correctional institutions" to the BOP); 42 U.S.C. § 1997e (limiting
suits against prison officials until after exhaustion of administrative remedies). This Court

12

' Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 13 of 16 PagelD #: 567

agrees with defendant that the obvious desire to pass laws affecting federal prisons and
prisoners, but the absence of authorization of a damages remedy against prison officials,
is a special factor that counsels hesitation for courts to provide an implied damages
remedy in this cases like this one. See Abbasi, 137 S .Ct. at 1865 {“So it seems clear that
Congress had specific occasion to consider the matter of prisoner abuse and to consider
the proper way to remedy those wrongs."). The Supreme Court did not definitively
foreclose any rebuttal argument against this reasoning. See id. (“It could be argued that
this suggests Congress chose not to extend the Carison damages remedy to cases
involving other types of prisoner mistreatment.” (emphasis added)). However, Patton did
not advance any arguments that would make this Court rule any differently.
In the end, Patton’s retaliation claim implicates separation-of-powers issues and
threatens a significant administrative and logistical burden to BOP officials. Adding in that
Congress has never statutorily authorized damages for a case like this, there are multiple
special factors that counsel hesitation for this Court to authorize an implied damages
remedy.
II. Qualified Immunity
Qualified immunity protects government officials from money damages unless it can
be shown “(1) that the official violated a statutory or constitutional right, and (2) that the
right was ‘clearly established1 at the time of the challenged conduct.” Ashcroft v. ai-Kidd,
563 U.S. 731, 735 (2011) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). To
determine whether qualified immunity applies, courts must, “as a threshold matter,
determine whether a constitutional or statutory right was deprived" and "[i]f there was no

13

' Case 2:16~cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 14 of 16 PagelD#:568

deprivation of such a right, then a defendant is entitled to qualified immunity and the Court
need not inquire further."

Minor v. Yanero, 2008 WL 822102, at *3 (N.D. W.Va.

Mar. 26, 2008) (Stamp, J.).
In retaliation claims, "plaintiffs must allege either that the retaliatory act was taken
in response to the exercise of a constitutionally protected right or that the act itself violated
such a right." Adams v. Rice, 40 F.3d 72, 75 (4th Cir. 1994). Retaliation claims must be
supported by “more than naked allegations of reprisal.” id. at 74. Further, this Court has
established more stringent standards for retaliation in prisoner cases.
In the prison context, a prisoner must allege more than his personal belief
that he is the victim of retaliation; that is, mere conclusory allegations of
retaliation are not sufficient to state a claim for retaliation. Rather, in this
case, the plaintiff must be prepared to establish that but for the retaliatory
motive the complained of incident—such as the filing of disciplinary reports
...—would not have occurred, and he must produce direct.evidence of
motivation, or the more probable scenario, allege a chronology of events
from which retaliation may plausibly be inferred.
Caver v. Lane, 2015 WL 9077032, at *3 (N.D. W.Va. Dec. 16,2015) (internal quotations
citations omitted) (Stamp, J.); see also Huang v. Bd. of Governors of Univ. of N.
Carolina, 902 F.2d 1134, 1140 (4th Cir. 1990) (requiring that claimants asserting First
Amendment retaliation claims under § 1983 actions must show there would have been no
retaliation “but for" the claimant’s protected expressions); Berry v. McBride, 2004 WL
3266037, at *3 (S.D. W.Va. Nov. 22, 2004) (Faber, C.J.) (citing Huang and holding that

14

* Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 15 of 16 PagelD#:569

plaintiff needed to "demonstrateQ that but for his protected action, he would not have been
subjected to the allegedly retaliatory actions") a/fcf, 122 F.App’x 654 (4th Cir. 2005).
Here, plaintiffs claim is that defendant violated his First Amendment rights because
defendant retaliated against him for his verbal complaint. The retaliation allegedly occurred
in 2014. As demonstrated by this Court's previous Order and the Fourth Circuit opinion,
there was a 2011 unpublished Fourth Circuit case that stated there was no constitutional
protection for verbal complaints. Later in Booker, a 2017 published case, the Fourth
Circuit held that prisoners do have a clearly established First Amendment right "to file a
prison grievance free from retaliation." 855 F.3d at 545. Therefore, at the time of the
incident, Patton did not have a clearly established constitutionally protected right at the
time defendant searched his cell since this right did not become clearly established until
three years after the search. Accordingly, this Court finds that even if Patton’s allegations
were sufficient to extend Bivens, defendant has qualified immunity from suit.
CONCLUSION
The Supreme Court has cautioned that courts should be weary to extend Bivens.
Additionally, Patton never helped his own case by analyzing his case under Abbasi or
responding to defendant’s arguments citing to Abbasi. For the reasons stated above, this
Court hereby GRANTS defendants’ Motion for Summary Judgment [Doc. 121]. The Clerk
is DIRECTED to enter judgment in favor of the defendant and to STRIKE this action from
the active docket of this Court.
It is so ORDERED.

15

' Case 2:16-cv-00010-JPB-MJA Document 134 Filed 06/17/19 Page 16 of 16 PagelD#:570

The Clerk is directed to transmit copies of this Order to all counsel of record herein
and to mail a copy to the pro se plaintiff.
DATED: June j^_t 2019.

JCUNPRESTON BAILEY
UNITCCJ STATES DISTRICT JUDGE

16

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 1 of 12 PagelD#:297

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
OMARI H. PATTON,
Plaintiff,
Civil Action No. 2:16-CV-10

v.

■i

CRYSTAL KIMBLE,
Defendants
REPORT AND RECOMMENDATION
On February 9, 2016, the pro se Plaintiff, Omari Patton, a federal prisoner,
initiated this Bivens complaint alleging that the Defendant, a correctional officer,
confiscated his legal papers. On February 10, 2016, the Plaintiff was granted leave to
proceed in forma pauperis [ECF No. 6], and on February 18, 2016, he paid the required
initial partial filing fee. ECF No. 9. On August 24, 2018, the undersigned conducted a
preliminary review of the complaint and determined that summary dismissal was not
warranted. Accordingly, an Order to Answer was entered [ECF No. 31], and a summons
was issued. ECF No. 32. On November 28, 2016, the Defendant filed a Motion to
Dismiss or, alternatively, for Summary Judgment. ECF No. 48. A Roseboro Notice was
issued on November 29, 2016 [ECF No. 50], and on December 13, 2016, the Plaintiff
filed a response in opposition to the Defendant’s motions. ECF No. 60. The undersigned
now issues this Report and Recommendation.
I.

BACKGROUND

The Plaintiff was charged with several counts related to a drug conspiracy in the
United States District Court for the Western District of Pennsylvania. A jury convicted
the Plaintiff on the conspiracy count and 27 substantive counts. On July 11,2005, he
l

APPENDIX C

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 2 of 12 PagelD#:298

was sentenced to a term of 360 months to be followed by five years of supervised
released. On September 5, 2008, the Third Circuit Court of Appeals affirmed the
conviction. Thereafter, the Plaintiff filed a Motion under 28 U.S.C. § 2255 on grounds of
ineffective assistance of counsel. The district court denied the motion on August 11
2010, and declined to issue a certificate of appealability. On October 23, 2012, the Third
Circuit affirmed the district court’s decision.
On March 4, 2015, the Plaintiff filed a Motion under 28 U.S.C. § 2244 for an order
from the Third Circuit authorizing him to file a second or successive application for relief
under § 2255. On March 11,2015, the Third Circuit entered an Order noting that
additional documents were required for the Court to consider his application.
Accordingly, the Order provided the Plaintiff with 21 days to file: (1) a memorandum, not
exceeding 20 pages, which clearly states how the standard of § 2244(b) are satisfied;
and (2) the new proposed habeas petition. On March 23, 2015, the Plaintiff filed a letter
which was construed as motion to be relieved from the filing requirements of Third
Circuit LAR 22.5.1 On April 9, 2015, the Third Circuit denied the Plaintiffs application for
permission to file a second or successive § 2255 motion because he failed to make a
prima facie showing that his claims rely on “(1) newly discovered evidence that, if
proven and viewed in light of the evidence as a whole, would be sufficient to establish
by clear and convincing evidence that no reasonable factfinder would have found [him]
guilty of the offense; or (2) a new rule of constitutional law, made retroactive to cases on

1 Petitioner's letter indicated that on August 21,2014, he had filed a grievance against BOP
employee K. Kimball for sentencing transcripts and partial trial transcripts and other documents
needed to properly prepare his habeas motion challenging his sentence pursuant to § 2244(b).
Therefore, Petitioner indicated that he was giving the court notice that he was unable to file his
petition due to the officer confiscating his legal material. Case No. 14-1555, Document No.
003111918875 (3rd Cir.).
2

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 3 of 12 PagelD #: 299

collateral review by the Supreme Court that was previously unavailable.” Case No. 151555, Document No. 00311935271 (3rd Cir. April 15, 2015).
II.

THE PLEADINGS

A. The Complaint
The Plaintiff alleges that on August 14, 2014, the Defendant, a housing officer at
FCI Hazelton, searched his cell and confiscated a binder containing some of his legal
documents. The Plaintiff contends that the next day, he verbally complained to Lieutenant
Williams regarding that search and confiscation. The Plaintiff further alleges that he later
questioned the Defendant regarding the August 14, 2014 search, and the Defendant
responded, referencing the Plaintiffs complaints to Lieutenant Wiliams, “since you want to
complain, next time I will make sure I take more." The Plaintiff continues that on August
19, 2014, the Defendant made a similar statement—"since you guys want to complain I’ll
take everything”—this time, before the entire L1 housing unit. Finally, the Plaintiff
alleges that on August 20, 2014, the Defendant again searched the Plaintiffs cell and
confiscated his sentencing transcripts and part of his trial transcripts.
The Plaintiff alleges that the Defendant’s actions violated his First, Fourth, Sixth,
and Fourteenth Amendment rights. In addition, the Plaintiff alleges that by taking his
sentencing transcript and partial trial transcript, the Defendant significantly impaired his
ability to access the court. More specifically, the Plaintiff alleges that the Defendant’s
actions prevented him from adequately pursuing his application for permission from the
Third Circuit to file a second or successive a motion under §2255. For relief, the Plaintiff
seeks monetary damages and an order directing the Defendant to return the legal
documents that she confiscated.

,
i...

3

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 4 of 12 PagelD #: 300

B. The Defendant’s Alternative Motions
The Defendant argues that she documented both searches and the records reflect
that no legal materials were confiscated. Moreover, the Plaintiff filed an administrative
complaint which triggered an internal investigation. The investigation revealed that the
searches only removed contraband in the form of nude photos from the Plaintiffs cell.
Accordingly, in support of her alternative motions, the Defendant asserts:
(1) Available evidence directly contradicts the Plaintiffs assertion that she confiscated
his legal materials, and because the Plaintiffs claims are built on baseless factual
allegations, the Court is empowered to dismiss the complaint.
(2) Even if the Plaintiff has pled a cognizable claim, the facts alleged do not establish
that the Defendant retaliated against him or violated his constitutional rights.
(3) The Plaintiff has failed to establish that the Defendant violated his constitutional
rights, and therefore, she is immune from Bivens liability.
C. Plaintiff’s Reply
In reply to the Defendant’s Motions, the Plaintiff alleges that there is a genuine
disputed issue of material fact as to the confiscation of his trial and sentencing
transcripts. In particular, the Plaintiff alleges that he observed the Defendant confiscate
his legal materials and tendered an affidavit from another inmate that he observed the
Defendant come out of the cell with a bag which appeared to contain papers and other
items. The Plaintiff continues to allege that the Defendant retaliated against him in
response to his making a verbal complaint to Lt. Williams regarding the initial
confiscation of his legal binder.
III.

g
STANDARD OF REVIEW

4

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 5 of 12 PagelD#:301

1.

Motion to Dismiss

“A motion to dismiss under Rule 12(b)(6) tests the sufficiency of a complaint;
importantly, it does not resolve contests surrounding facts, the merits of a claim, or the
applicability of defenses.” Republican Party of N.C. v. Martin. 980 F.2d 943, 952 (4th
Cir. 1992) (citing 5A Charles Alan Wright & Arthur R. Miller, Federal Practice and
Procedure § 1356 (1990)). In considering a motion to dismiss for failure to state a claim
a plaintiffs well-pleaded allegations are taken as true and the complaint is viewed in the
light most favorable to the plaintiff. Mvlan Labs. Inc, v. Matkari. 7 F.3d 1130, 1134 (4th
Cir. 1993); see also Martin. 980 F.2d at 952.
The Federal Rules of Civil Procedure “require only 'a short and plain statement of
the claim showing that the pleader is entitled to relief,’ in order to 'give the defendant fair
notice of what the . . . claim is and the grounds upon which it rests.”’ Bell Atl. Corp. v.
Twomblv. 550 U.S. 544, 555 (2007) (quoting Conlev v. Gibson. 355 U.S. 41,47 (1957)).
Courts long have cited the “rule that a complaint should not be dismissed for failure to
state a claim unless it appears beyond doubt that the plaintiff can prove no set of facts
in support of [a] claim which would entitle him to relief.” Conlev. 355 U.S. at 45-46. In
Twomblv. the United States Supreme Court noted that a complaint need not assert
“detailed factual allegations” but must contain more than “labels and conclusions” or “a
formulaic recitation of the elements of a cause of action." IdL at 555 (citations omitted).
Thus, the “[factual allegations must be enough to raise a right to relief above the
speculative level,” j<i (citations omitted), to one that is “plausible on its face,” jd. at 570:
rather than merely "conceivable.” ]d. Therefore, in order for a complaint to survive
dismissal for failure to state a claim, the plaintiff must “allege facts sufficient to state all

5

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 6 of 12 PagelD#:302

the elements of [his or] her claim.” Bass v. E.l.DuPont de Nemours & Co.. 324 F.3d 761
765 (4th Cir.2003) (citing Dickson v. Microsoft Coro.. 309 F.3d 193, 213 (4th Cir. 2002);
lodice v. United States. 289 F.3d 279, 281 (4th Cir. 2002)). In so doing, the complaint
must meet a “plausibility” standard, instituted by the Supreme Court in Ashcroft v. Iqbal
where it held that a "claim has facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft. 129 S.Ct. 1937, 1949 (2009). Thus, a well-pleaded
complaint must offer more than “a sheer possibility that a defendant has acted
unlawfully” in order to meet the plausibility standard and survive dismissal for failure to
state a claim. Id.
2.

Summary Judgment

Pursuant to Rule 56(a) of the Federal Rules of Civil Procedure, “[t]he court shall
grant summary judgment if the movant shows that there is no genuine issue as to any
material fact and that the movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a).
Motions for summary judgment impose a difficult standard on the moving party;
for it must be obvious that no rational trier of fact could find for the nonmoving party.
Miller v. Federal Deposit Ins. Corp.. 906 F.2d 972, 974 (4th Cir. 1990). However, the
“mere existence of a scintilla of evidence” favoring the nonmoving party will not prevent
the entry of summary judgment. Anderson v. Liberty Lobby, Inc., 477 U.S. 242-252
(1986). To withstand such a motion, the nonmoving party must offer evidence from
which a "fair-minded jury could return a verdict for the [party].” jcl “If the evidence is
merely colorable, or is not significantly probative, summary judgment may be granted.”
>6

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 7 of 12 PagelD #: 303

Feltv v. Graves-Humphrevs Co., 818 F.2d 1126, 1128 (4th Cir. 1987). Such evidence
must consist offsets which are material, meaning that they create fair doubt rather than
encourage mere speculation. Anderson. 477 U.S. at 248. It is well recognized that any
permissible inferences to be drawn from the underlying facts must be viewed in the light
most favorable to the party opposing the motion. Matsushita Elec. Industrial Co. v.
Zenith Radio Coro.. 475 U.S. 574, 587-88 (1986).
IV.

DISCUSSION

As previously noted, the Defendant has filed a Motion to Dismiss or, in the
alternative, for Summary Judgment. The undersigned finds that there are genuine
issues of material fact, specifically, whether the Defendant did, in fact, remove a legal
binder and the Plaintiffs trial and sentencing transcripts from his cell. Therefore,
summary judgment is not appropriate. However, even if the Defendant did remove the
items as alleged, the undersigned finds that the Plaintiffs complaint fails to state a claim
upon which relief can be granted, and accordingly, this case should be dismissed.

1.

The Plaintiffs “Claim A”—First Amendment/Retaliation

In order to sustain a claim based on retaliation, the Plaintiff “must allege either
that the retaliatory act was taken in response to the exercise of a constitutionally
protected right or that the act itself violated such a right”. Adams v. Rice, 40 F.3d 72, 75
(4th Cir. 1994). Additionally, a plaintiff alleging that a government official retaliated
against him in violation of a constitutional right must demonstrate, inter alia, that he
suffered some adversity in response to his exercise of protected rights. American Civil
Liberties Union v. Maryland. Inc, v. Wicomico County. Md., 999 F.2d 780, 785 (4th Cir.
1993). Therefore, in forma pauperis plaintiffs who claim that their constitutional rights

7

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 8 of 12 PagelD#:304

have been violated by official retaliation must present more than naked conclusory
allegations of reprisal to survive [§ 19159e)(2)(B)]” id
The Plaintiff asserts that following the first search, the Plaintiff complained to the
Defendant’s superior. The Plaintiff argues that his complaints provoked the Defendant
to search his cell a second time and confiscate more legal documents. The second
search, the Plaintiff argues, was retaliation for his complaints. The Plaintiff argues that
he has a First Amendment right to complain about the first search and that the
Defendant’s retaliation violated that right.
However, contrary to the Plaintiff assertion, the Fourth Circuit has made it clear
that a federal inmate’s verbal complaints are not constitutionally protected and cannot
support a retaliation claim. Dave v. Rubenstein. 417 F. App’x 317, 319 (4th Cir. 2011)
(per curiam) (unpublished). In that decision, the Fourth Circuit concluded that Daye was
not engaging in constitutionally protected speech when he verbally alerted prison
officials to purported racial discrimination in his prison job. Daye’s “expression of
dissatisfaction was not constitutionally protected” because his verbal complaints “were
essentially a grievance."

Because a federal inmate has no constitutional right to

assert grievances, Daye was not exercising a constitutional right when he verbally
complained. \_± Therefore, any alleged retaliation stemming from Day’s remarks could
not have been the results of his exercising a constitutional right, jd. Accordingly, the
Fourth Circuit found that Daye’s retaliation claim lacked merit and was properly
dismissed. Id.
In the instant case, the Plaintiff, like Daye, verbally complained to a prison staff
member. ECF No. 1 at 8. Plaintiffs verbal complaint is essentially a grievance and is not

8

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 9 of 12 PagelD #: 305

constitutionally protected. Therefore, even if Defendant removed additional materials
from Plaintiffs cell in “retaliation” for his complaining, Plaintiff was not exercising a
constitutional rights, and his allegation fails to state a Bivens claim.
2.

Plaintiffs "Claim B”—First, Fourth, Sixth and Fourteenth Amendments

The Plaintiffs “Claim B” raises four arguments of constitutional law.

For the

reasons discussed below, the undersigned has concluded that none raises a viable
claim for relief.
a.

First Amendment

The Plaintiff argues that his First Amendment right to access the courts was
violated when the Defendant retaliated by confiscating his legal documents. An inmate’s
rights to access the court system is not unlimited. Bounds v. Smith. 430 U.S. 817, 825
(1977). Rather, an inmate is guaranteed "a reasonably adequate opportunity to present
claimed violations of fundamental constitutional rights to the courts.” Id. “[W]here it is
alleged ... that prison officials confiscated or withheld legal materials or papers and
hindered efforts to pursue legal claims, it must also be alleged and shown that the
prison officials’ conduct actually resulted in the complainant’s inability to proceed in
Court.” Conrad. 2014 WL 36646 at *13 (citations omitted).
Here, the alleged harm is that the Plaintiff was unable to prosecute his
application to the Third Circuit to file a second or successive motion. However, a
second or successive motion must be based on newly discovered evidence or a new
rule of Constitutional law. 28 U.S.C. § 2255(h). The Plaintiff alleges that it was his trial
transcripts and sentencing transcripts that were confiscated. These transcripts existed
at the time of his first appeal and are not new evidence. Moreover, the Plaintiff has not

9

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 10 of 12 PagelD#:306

identified any newly discovered evidence2 nor a new rule of Constitutional law, made
retroactive to cases on collateral review by the Supreme Court that was previously
unavailable. Therefore, there is no evidence before this Court that would establish that
the alleged confiscation or destruction of the Plaintiffs legal materials impaired his
ability to obtain authorization from the Third Circuit to file a second or successive §2255
motion.
b.

Fourth Amendment

The Plaintiff relies on several cases arguing that prisoners have a very limited
Fourth Amendment right to privacy in their cells. However, the United States Supreme
Court has concluded that a prisoner has "no legitimate expectation of privacy" in his cell.
Hudson v. Palmer. 468 U.S. 517, 526 (1984). Therefore, “the Fourth Amendment
proscription against unreasonable searches does not apply within the confines of a
prison cell.” Id. at 526. In explaining its reasoning, the Supreme Court noted that prison
officials must retain “[u]nfettered access” to inmate housing areas in order to maintain
safety and security, jd at 526-27. The Court continued by explaining that “[a] right of
privacy in traditional Fourth Amendment terms is fundamentally incompatible with the
close and continual surveillance of inmates and their cells required to ensure
institutional security and internal order. Therefore, because Plaintiff had no legitimate
expectation of privacy in his cell, Defendant did not violate his privacy when she
searched his cell.
c.

Sixth Amendment and Fourteenth Amendment

2 In fact, Plaintiff alleges that he “received the newly discovered evidence from the Executive
Office of United States attorneys [on March 5, 2004] stating ‘after conducting a second search
they were unable to locate the records responsive to your request.”' Case No. 15-1555
DocumentNo. 00311901250, p. 7 (3rd Cir.).
- ----- 10

.

.... -

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 11 of 12 PagelD #: 307

The Plaintiffs “Claim B” asserts a violation of the Sixth and Fourteenth
Amendment. However, the Plaintiff provides no argument for how these rights were
violated. Therefore, the undersigned is unpersuaded by the mere assertion that these
rights were violated.
3.

The Plaintiffs "Claim C —First and Sixth Amendments

The Plaintiffs “Claim C” is titled as a violation of the First and Sixth Amendments.
However, the complaint does not address how these rights were violated. Furthermore,
as addressed above, the Court finds that the Plaintiffs First Amendment rights were not
violated. Moreover, the Court sees no conceivable Sixth Amendment violation.
Furthermore, despite being titled as a violation of the First and Sixth
Amendments, this claim primarily asserts that the Defendant violated the Plaintiffs right
to Due Process. The Plaintiffs assertion, however, is conclusory and does not explain
how his Due Process rights were violated. The Court sees no arguable deprivation of
Due Process. Indeed, as discussed above in Section 2, Part A, the Plaintiff identified no
new evidence or rule of constitutional law that would justify granting his motion to file a
second or successive § 2255 motion. Therefore, he asserts no basis for a motion
pursuant to 28 U.S.C. § 2244, and accordingly, no claim for a Due Process violation.
V.

RECOMMENDATION

For the foregoing reasons, the undersigned recommends that:
1. The Defendant’s [ECF No. 48] be GRANTED to the extent it seeks a Motion to
Dismiss; and be DENIED AS MOOT to the extent it seeks a Motion for Summary
Judgment;
2. The Plaintiffs [ECF No. 1] Complaint be DISMISSED;

11

Case 2:16-cv-00010-JPB-MJA Document 65 Filed 07/11/17 Page 12 of 12 PagelD #: 308

3.

The Plaintiffs [ECF No. 63] Motion for Leave to Reply be DENIED AS

MOOT.
Within fourteen days after being served with a copy of this report and
recommendation, any party may file with the Clerk of Court written objections identifying
those portions of the recommendation to which objection is made and the basis for such
objections. A copy of any objections shall also be submitted to the United States
District Judge. Failure to timely file objections to this recommendation will result in
waiver of the right to appeal from a judgment of this Court based upon such
recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Arn. 474 U.S. 140 (1985); Wright v.
Collins. 766 F.2d 841 (4th Cir. 1985): United States v. Schronce. 727 F.2d 91 (4th Cir.
1984).
The Clerk is directed to mail a copy of this Report and Recommendation to the
pro se Plaintiff by certified mail, return receipt requested, to his last known address as
shown on the docket and provide a copy to counsel of record via electronic means.
DATED: July 11,2017.

/6 SMiekael. %/t n <3Sjoi
MICHAEL JOHN ALOI
UNITED STATES MAGISTRATE JUDGE

12

